                         U.S. Department of Agriculture

                            Office of Inspector General
                                        Midwest Region




               Audit Report

             Improper Payments:
Monitoring the Progress of Corrective Actions
        for High-Risk Programs in the
             Farm Service Agency




                             Report No. 03601-0014-Ch
                                             May 2007
                  UNITED STATES DEPARTMENT OF AGRICULTURE
                                   OFFICE OF INSPECTOR GENERAL

                                        Washington D.C. 20250




REPLY TO
ATTN OF:       03601-0014-Ch

TO:            Teresa C. Lasseter
               Administrator
               Farm Service Agency

THROUGH: T. Mike McCann
         Director
         Operations Review and Analysis Staff

FROM:          Robert W. Young               /s/
               Assistant Inspector General for Audit

SUBJECT:       Improper Payments: Monitoring the Progress of Corrective Actions for
               High-Risk Programs in the Farm Service Agency


This report presents the results of our audit of the Farm Service Agency’s efforts to quantify the
extent of improper payments for the Marketing Assistance Loan, Loan Deficiency Payment, and
Milk Income Loss Contract Programs and implement corrective actions.

Your agency’s response to the draft report, dated May 1, 2007, is included in its entirety as
exhibit A, with excerpts from the response and the Office of Inspector General’s position
incorporated into the relevant sections of the report. Based on the written response, we have
reached management decision on Recommendation 2. Please follow your agency’s internal
procedures in forwarding documentation for final action to the Office of the Chief Financial
Officer.

We have not reached management decision for Recommendation 1. Management decision on
this recommendation can be reached once you have provided us the additional information
outlined in the report section titled OIG Position, following the recommendation.

In accordance with Departmental Regulation 1720-1, please furnish a reply within 60 days
describing the corrective actions taken or planned and the timeframes for completing the
corrective actions.      Please note that the regulation requires a management
Teresa C. Lasseter                                                           2


decision to be reached on all recommendations within a maximum of 6 months from report
issuance, and final action to be taken within 1 year of each management decision.

We appreciate the courtesies and cooperation extended to us by your staff.
Executive Summary
Improper Payments: Monitoring the Progress of Corrective Actions for High-Risk
                   Programs in the Farm Service Agency

Results in Brief                   This report presents the results of our audit of the Farm Service Agency’s
                                   (FSA) efforts to identify improper payments and implement corrective
                                   actions for its three high-risk programs. In 2001, the Office of Management
                                   and Budget (OMB) designated FSA’s Marketing Assistance Loan (MAL)
                                   Program as high-risk. 1 FSA officials determined that its Loan Deficiency
                                   Payment (LDP) and Milk Income Loss Contract (MILC) Programs were also
                                   high-risk. Our objectives were to evaluate FSA’s attempts to estimate the
                                   extent of improper payments reported in the fiscal year (FY)
                                   2005 Performance and Accountability Report (PAR). We also assessed the
                                   agency’s attempt to implement corrective action plans.

                                   We found that FSA personnel, through their contractor, did not properly
                                   determine the FY 2004 improper payment estimates for the three high-risk
                                   programs. For instance, the universe for the MILC Program’s statistical
                                   sample did not include all possible payments. Additionally, in all three
                                   programs, not all selected payments were reviewed, statistical calculations
                                   did not account for payment variables, and results were questionable because
                                   of missing or incomplete supporting documents. We attribute these conditions
                                   to FSA officials who did not provide sufficient monitoring of the contractor’s
                                   staff. As a result, agency officials reported an inaccurate and unsupported
                                   improper payment amount of $50.2 million in the FY 2005 PAR.

                                   Although the contractor’s staff originally had developed sufficient definitions
                                   of improper payments for each of FSA’s three high-risk programs, the test for
                                   improper payments was drastically reduced. Instead of adhering to the initial
                                   criteria, the contractor’s staff only reviewed two factors: commodity
                                   quantities and payment rates. The initial criteria were eliminated from the
                                   contractor’s definitions of improper payments because of time constraints;
                                   FSA personnel authorized this limitation in scope to meet the Office of the
                                   Chief Financial Officer’s (OCFO) reporting deadline for the FY 2005 PAR.
                                   As a result, FSA’s estimates did not represent the actual extent of improper
                                   payments in its high-risk programs.

                                   During our audit, we made FSA officials aware of our concerns regarding the
                                   contractor’s performance of the sampling procedure, and the inaccurate
                                   results in the FY 2005 PAR. FSA officials had been apprehensive of the
                                   contractor’s work and determined that internal FSA review staff could better
                                   identify improper payments in the high risk programs. FSA personnel from

1
  The Commodity Loan Program, subsequently renamed MAL, was identified by OMB in Circular No. A-11 (2001), Section 57, and required to provide
estimates of improper payments with initial budget estimates.

USDA/OIG-AUDIT/03601-0014-Ch                                                                                                         Page i
                    the Operations Review and Analysis Staff (ORAS) had agreed to play a
                    crucial role in future statistical samplings. In order to provide more accurate
                    estimates in the FY 2006 PAR, ORAS developed a sampling plan, selected
                    the sample, and defined specific criteria to test for improper payments in each
                    high-risk program. Since ORAS performs internal reviews of field office
                    operations, this branch of FSA has comprehensive knowledge of FSA’s
                    programs. Consequently, they addressed eligibility requirements that were not
                    considered in the sample for the FY 2005 PAR.

                    The initial results from the revisions to the sampling process revealed
                    considerably higher improper payment rates. The new methodology showed a
                    FY 2005 rate of 13 percent for the LDP Program; FSA personnel had
                    reported an improper payment rate of one percent for LDP in FY 2004. Also,
                    the modifications disclosed a FY 2005 improper payment rate of 22 percent
                    for the MAL Program while the FY 2004 rate was reported as 0.7 percent.
                    The review for the 2006 PAR was still in process at the time we completed
                    our audit work.

                    It is clear that the flawed methodologies of FSA’s statistical sampling
                    procedures must continue to be addressed. Although we commend FSA
                    officials for their attempts to revise the sampling process, agency personnel
                    should continue improving their efforts to fully assess their improper payment
                    amounts, and advance agency accountability by reporting accurate estimates
                    in each annual PAR.

Recommendations
In Brief            We recommend that FSA officials develop and implement controls to assure
                    that statistical sampling processes comply with all OMB and OCFO
                    requirements. These should include using the entire universe, reviewing all
                    payments selected, accounting for payment variables, and maintaining
                    documentation to support the results that are reported in the PAR. Also, we
                    recommend that FSA personnel define the specific criteria and conditions that
                    could result in improper payments for each high-risk program.

 Agency Response    In their response dated May 1, 2007, FSA officials generally agreed with the
                    findings and recommendations contained in the report. We have included the
                    entire response as exhibit A of the report and incorporated portions, along
                    with our position, in the Findings and Recommendations section of the
                    report.

 OIG Position       We agree with FSA officials’ response and have reached management
                    decision on Recommendation 2. Management decision has not been reached
                    on Recommendation 1. We can reach management decision when we receive
                    information on how FSA’s Financial Management Division oversees and
                    monitors the statistical sampling process currently in use to identify improper
                    payments.
 USDA/OIG-AUDIT/03601-0014-Ch                                                             Page ii
Abbreviations Used in This Report

CAP                 Corrective Action Plan
COTR                Contracting Officer’s Technical Representative
FMD                 Financial Management Division
FSA                 Farm Service Agency
FY                  Fiscal Year
IPIA                Improper Payments Information Act of 2002
LDP                 Loan Deficiency Payment
MAL                 Marketing Assistance Loan
MILC                Milk Income Loss Contract
OCFO                Office of the Chief Financial Officer
OIG                 Office of Inspector General
OMB                 Office of Management and Budget
ORAS                Operations Review and Analysis Staff
PAR                 Performance and Accountability Report
PSD                 Price Support Division
SOW                 Statement of Work
USDA                United States Department of Agriculture




USDA/OIG-AUDIT/03601-0014-Ch                                         Page iii
Table of Contents

Executive Summary .................................................................................................................................i

Abbreviations Used in This Report ......................................................................................................iii

Background and Objectives ................................................................................................................... 1

Findings and Recommendations............................................................................................................ 4

    Section 1. Statistical Sampling Methodology................................................................................... 4

        Finding 1             Statistical Sampling Results Were Not Statistically Valid...................................... 4
                                   Recommendation 1 .......................................................................................... 8
        Finding 2             Improper Payment Reviews Limited....................................................................... 9
                                   Recommendation 2 ........................................................................................ 12

Scope and Methodology........................................................................................................................ 13

Exhibit A – Agency Response .................................................................. Error! Bookmark not defined.




USDA/OIG-AUDIT/03601-0014-Ch                                                                                                           Page iv
Background and Objectives
Background                          The President’s Management Agenda of 2002 emphasized the need to
                                    identify erroneous payments and establish goals to reduce them for each
                                    Federal program. In November 2002, the President signed Public Law
                                    107-300, the Improper Payments Information Act of 2002 (IPIA), which
                                    expanded prior reporting requirements to include all programs that may have
                                    significant improper payments. Beginning in the fiscal year (FY) 2004
                                    Performance and Accountability Report (PAR), the act requires agencies to
                                    report an annual estimated amount of improper payments, total outlays, and
                                    corrective action plans (CAP) for all programs identified as high-risk. In May
                                    2003, the Office of Management and Budget (OMB) issued specific
                                    regulations which agencies must abide by when estimating and reporting
                                    improper payments, including a provision that agencies base their high-risk
                                    program improper payment estimates on valid statistical samples. 2 In
                                    addition, the Office of the Chief Financial Officer (OCFO) has issued
                                    substantial guidance to all United States Department of Agriculture (USDA)
                                    agencies to assist them in implementing the IPIA requirements.

                                    The Farm Service Agency (FSA) personnel contracted with an outside vendor
                                    to perform the statistical sampling required for estimating FY 2004 improper
                                    payments in the Loan Deficiency Payment (LDP), Marketing Assistance
                                    Loan (MAL), and Milk Income Loss Contract (MILC) Programs for the FY
                                    2005 PAR. FSA’s Statement of Work (SOW) detailed the contracting
                                    officials’ tasks and required deliverables for each program. According to the
                                    SOW, the contractor’s work was to be monitored by FSA’s Financial
                                    Management Division’s (FMD) Contracting Officer’s Technical
                                    Representative (COTR). 3 The COTR’s duties included reviewing required
                                    deliverables, issuing written acceptance or rejection of the deliverables, and
                                    providing written comments specifying deficiencies if the deliverables were
                                    unacceptable. At completion of the work, the contractor issued a report to
                                    FSA for each high-risk program that included the improper payment error
                                    rates. FSA used the error rates to determine the estimated improper payment
                                    amounts for each high-risk program.

                                    Marketing Assistance Loan Program

                                    The MAL Program, originally known as the Commodity Loan Program, was
                                    a result of the Agricultural Adjustment Act of 1933. 4 The program was
                                    designed to provide producers with interim financing at harvest time. Eligible
                                    producers obtain loans to meet cash flow needs without having to sell their

2
  OMB Memorandum M-03-13, dated May 21, 2003.
3
  FSA’s Financial Management Division (FMD) is responsible for assessing and monitoring IPIA requirements, executing statistical samplings of high-
risk programs, and reporting the results to the OCFO for inclusion in the PAR.
4
  Public Law 73-10, signed May 12, 1933.
USDA/OIG-AUDIT/03601-0014-Ch                                                                                                              Page 1
                   commodities when market prices are typically at harvest-time lows.
                   Producers pledge their crops as collateral. Since they have nine months to
                   repay the loans, they store their crops during that period. Producers are
                   allowed to store production at harvest time to facilitate more orderly
                   marketing of commodities throughout the year. At producers’ discretion, they
                   may either repay the loans, or deliver the pledged collateral to the Federal
                   Government as full payment for the loan at maturity. In the FY 2005 PAR,
                   FSA officials reported an estimated FY 2004 MAL Program improper
                   payment amount of $45 million, which was based on an estimated improper
                   payment rate of 0.7 percent. The agency reported total outlays of $6.4 billion.

                   Loan Deficiency Payment Program

                   FSA’s LDP Program was created in 1985 to boost producers’ incomes when
                   prices are low. The program is designed to supplement low market prices at
                   harvest time. Basically, producers receive subsidies to encourage them to sell
                   their crops. The LDP Program provides payments to producers who are
                   eligible for the MAL Program, but instead opt to accept a subsidy when
                   market prices are below the loan rate. Payments are made to producers when
                   market prices fall below a price set by the Federal Government. In the FY
                   2005 PAR, FSA officials reported an estimated FY 2004 LDP Program
                   improper payment amount of $5 million, which was based on an estimated
                   improper payment rate of 1.0 percent. Total outlays were $453 million.

                   Milk Income Loss Contract Program

                   The MILC Program was created under the 2002 Farm Bill. The bill
                   authorized FSA to provide the Nation’s dairy producers with economic
                   assistance for market losses. Under the program’s provisions, payments are
                   issued on a monthly basis to eligible dairy operations. Payments are based on
                   the quantity of eligible production marketed by producers when the domestic
                   milk prices fall below a specified level. To be eligible for payments,
                   producers must provide FSA with evidence of dairy production, such as sales
                   records and production volumes. In the FY 2005 PAR, FSA officials
                   disclosed the estimated FY 2004 MILC Program improper payment rate of
                   0.09 percent. This equated to a total amount of program improper payments
                   of $200,000, which was based on total outlays in FY 2004 that were
                   estimated as $245 million.

                   The combination of FY 2004 outlays for all three programs total $7.1 billion,
                   which represents 13.3 percent of the total outlays for all of USDA’s high-risk
                   programs. In the FY 2005 PAR, FSA reported a total improper payment
                   amount of $50.2 million.




USDA/OIG-AUDIT/03601-0014-Ch                                                             Page 2
Objectives         The objectives of the audit were to evaluate FSA’s: (1) actions to quantify
                   the extent of improper payments, and (2) efforts to establish corrective
                   actions.




USDA/OIG-AUDIT/03601-0014-Ch                                                          Page 3
Findings and Recommendations
Section 1. Statistical Sampling Methodology

                                 We found significant flaws in the methodology the contractor’s staff used to
                                 conduct the statistical sample. Specifically, a number of elements did not
                                 comply with OMB requirements and OCFO guidelines. Such elements
                                 included calculations which did not account for payment variables, missing
                                 supporting documentation, and a limited scope. The scope was limited
                                 because FSA officials authorized the contractor’s staff to eliminate
                                 substantial criteria to meet the OCFO reporting deadline. Furthermore, FSA’s
                                 COTR did not provide sufficient monitoring over the contractor’s staff to
                                 ensure that their work adhered to FSA’s SOW. Consequently, the improper
                                 payment estimates which FSA reported in the FY 2005 PAR were
                                 significantly understated.




Finding 1                        Statistical Sampling Results Were Not Statistically Valid

                                 FSA personnel did not properly determine the FY 2004 improper payment
                                 estimates for their three high-risk programs. We found that the universe for
                                 the MILC Program’s statistical sample did not include all possible payments.
                                 Additionally, in all three programs, not all selected payments were reviewed,
                                 statistical calculations did not account for payment variables, and results were
                                 questionable because of missing or incomplete supporting documents. We
                                 attribute these conditions to FSA officials who did not provide sufficient
                                 monitoring of the contractor’s staff. As a result, FSA officials reported
                                 inaccurate and unsupported improper payment amounts totaling over
                                 $50 million in the FY 2005 PAR.

                                 OMB requires agencies to utilize a statistically-valid method to estimate
                                 improper payment rates, which must be based upon the gross total of both
                                 over- and underpayments. The estimates should be generated through the
                                 design and selection of a statistically-valid random sample. This sample must
                                 be of a sufficient size to yield an estimate with a 90 percent confidence
                                 interval of plus or minus 2.5 percent. OMB also requires agencies to maintain
                                 documentation supporting the calculation of the annual estimates. 5 In
                                 2004, OCFO expanded upon existing OMB requirements. It clarified
                                 reporting procedures for USDA agencies by requiring agencies to use a
                                 template when reporting statistical sampling results. Also, OCFO required
                                 statistical samples to track through each phase of payment processing


5
    OMB, Memorandum M-03-13, May 21, 2003.
USDA/OIG-AUDIT/03601-0014-Ch                                                                            Page 4
                                    procedures. 6 Thus, agencies must adhere to OMB’s requirements as well as
                                    OCFO’s guidance.

                                    Along with the sampling results, the contractor’s staff provided FSA
                                    personnel with all documents they reviewed while determining if improper
                                    payments had been issued. We reviewed the contractor’s determinations to
                                    assess the accuracy of the sampled payments based upon the documents they
                                    had reviewed. This was done by analyzing the work of the contractor’s staff
                                    and evaluating supporting documents such as program applications and
                                    production evidence

                                    We found that the improper payment error rates determined by the contractor
                                    were not statistically valid. In FSA’s attempt to estimate its FY
                                    2004 improper payments, we found that the estimates were invalid for the
                                    following reasons:

                                           Incomplete Universe for MILC Sample

                                           In the MILC Program, the contractor’s staff did not use the entire
                                           universe to design their sample. In our review of MILC Program
                                           sampling documentation, we found that the contractor excluded about
                                           86 percent of the producers. Although the total universe included
                                           approximately 91,000 producers, the contractor limited the selection to
                                           counties with seven or more MILC Program applications. This reduced
                                           the sampling universe to only 14 percent (12,600) of the total number of
                                           producers.

                                           All Selected Transactions Not Reviewed

                                           All transactions the contractor requested from FSA field offices were not
                                           reviewed. For example, in the MILC Program, the contractor’s staff
                                           selected 200 sample transactions, but only reported the results of its
                                           review of 158. 7 In the LDP Program report, the contractor disclosed
                                           selecting seven transactions from each county office, but did not review
                                           all of them. Instead, for example, the contracting officials only reviewed
                                           one transaction from Caldwell County, Louisiana, and 12 transactions
                                           from Hidalgo County, Texas. The contractor’s staff neglected to explain
                                           these discrepancies in the reports sent to FSA officials. Furthermore, the
                                           contractor’s staff reviewed 17 LDP Program payments that were not
                                           shown on the list of selected sample payments that FSA personnel
                                           provided to us. Additionally, the contractor’s staff did not sample
                                           24 payments on this list.



6
    USDA, FY 2005 High Risk Plan Guidance, Version 1.0, November 10, 2004.
7
    One transaction in the MILC Program may include up to four payments.
USDA/OIG-AUDIT/03601-0014-Ch                                                                                Page 5
                      Variance in Dollar Amount of Payments Not Considered

                      The improper payment error rates FSA personnel reported in the FY
                      2005 PAR represent the entire payments instead of the proportion of
                      actual dollar amounts that were improper. This occurred because the
                      contractor’s staff used the total number of improper payments found
                      during their sampling of each program’s payments and the total number
                      of sampled payment transactions tested to calculate the error rate
                      percentage for each program. (FSA personnel then multiplied this
                      percentage by the total program outlays to identify estimated improper
                      payment amounts for each high-risk program.) However, the value of the
                      improper payments identified should have been divided by the total
                      value of the sampled payments tested. By using the total number of
                      payment transactions to calculate the error rate, rather than the value of
                      actual improper payments, the contractor’s results assumed that all
                      transactions were monetarily equal, and the entire payments were
                      improper. Since the contractor did not include the actual value of each
                      sampled payment in its reports or in the supporting documentation, we
                      were unable to apply the correct methodology and calculate an accurate
                      error rate.

                      Since over- and underpayments are made occasionally in all programs,
                      only a fraction of payments may be improper. For example, a producer
                      could receive a $100 payment, but could have been eligible for only $80.
                      In this case, the value of the improper payment should be $20, and not
                      the entire payment of $100. Underpayments would also require the
                      contracting officials to make similar adjustments. We found that the
                      contractor incorrectly assumed that the amount of every improper
                      payment was equal to the total dollar amount issued; however, only a
                      part of the payment could be improper.

                      Missing and Incomplete Supporting Documents

                      In order to evaluate the contractor’s determination of improper
                      payments, we judgmentally selected 36 of 130 LDP Program payments
                      and 15 of 146 MAL Program payments. In addition, we randomly
                      selected 64 of 158 MILC Program payments. We reviewed 115 of the
                      434 payments sampled by the contractor’s staff. The contractor
                      submitted to FSA personnel all documentation it had obtained from FSA
                      field offices. The contractor’s conclusions regarding the validity of
                      sampled payments were based upon these documents. We analyzed the
                      documentation to determine if the contractor’s staff had sufficient
                      support for their conclusions.

                      Although the contractor had identified only 4 improper payments in all
                      3 programs, we discovered 52 additional payments which were
USDA/OIG-AUDIT/03601-0014-Ch                                                           Page 6
                                           questionable. Supporting documentation for these payments either did
                                           not exist, or was incomplete; therefore, the validity of these payments
                                           could not have been determined correctly.

                                           We could not locate any supporting documentation for 20 sampled
                                           transactions in the LDP and MAL Programs. The contractor reported that
                                           only one of the 130 sampled payments was improper for LDP. We
                                           evaluated 36 of the 130 to determine if the contractor’s conclusions were
                                           valid but could not locate any support for 14 of them. In addition, when
                                           we evaluated the 15 MAL Program payments, 6 payments, which the
                                           contractor’s staff determined to be proper, lacked supporting
                                           documentation.

                                           In summary, we found incomplete supporting documentation in all three
                                           high-risk programs. For example, the contractor determined that an LDP
                                           Program payment was valid, but we could not locate a request date on
                                           the application in the contractor’s supporting documents. An LDP
                                           Program request date is an important component of the application, as it
                                           is needed to determine the rate per commodity unit to which the producer
                                           is entitled. FSA’s Price Support Division (PSD) officials agreed that
                                           without the LDP Program request date, the rate could not be
                                           determined. 8

                                    FSA officials should have monitored the contractor’s adherence to the SOW,
                                    which required the contractor’s staff to present specific deliverables to FSA,
                                    develop a review plan, and determine specific documents to be reviewed.
                                    FSA officials wrote the SOW, which stated that FMD’s COTR was to
                                    monitor the contractor. The SOW also required the contractor to design and
                                    select a statistical sample based on OMB’s formula and OCFO’s guidance,
                                    review payments selected for the sample, document the results, and deliver
                                    them to the COTR for approval. Since some of the deliverables were
                                    questionable, the COTR should have provided the contractor with written
                                    comments that identified the deficiencies. The agency had the right to reject
                                    and require corrections of any deficient deliverables; however, this was not
                                    done because FSA officials did not review all deliverables.

                                    When we interviewed the COTR, he could not explain why the contractor’s
                                    sampling was not statistically valid. The COTR informed us that he
                                    monitored the contractor, which included scheduling regular meetings with
                                    the contractor’s officials, reviewing all deliverables, and resolving problems
                                    related to obtaining information. He arranged a meeting for us with the
                                    contractor’s officials, but they could not provide any other information that
                                    would help explain the sampling results. When we asked them to explain
                                    their sampling methodology, they could not provide a reasonable explanation.
8
  The Price Support Division (PSD) is the branch of FSA which is responsible for loan servicing and compliance with commodity loan program
provisions.
USDA/OIG-AUDIT/03601-0014-Ch                                                                                                             Page 7
                                     Instead, they told us that they had provided all related documentation to FSA
                                     in order to support their conclusions and the statistical data included in their
                                     reports.

                                     During the audit, we informed FSA officials of our concerns about the
                                     contractor’s performance regarding the FY 2005 sampling of FY
                                     2004 payments. FSA officials had recognized deficiencies with the sampling
                                     performed in FY 2005, and had requested that its Operations Review and
                                     Analysis Staff (ORAS) perform the sampling. ORAS contracted with a
                                     different statistician to develop a sampling plan, select the sample, and
                                     provide FY 2005 estimates for reporting in the FY 2006 PAR. 9 We commend
                                     FMD for revising its statistical sampling process to improve the accuracy of
                                     improper payments for the LDP and MAL Programs in the FY 2006 PAR. 10
                                     However, since the FY 2006 sampling process was ongoing at the time of our
                                     audit, we could not evaluate the results.

                                     Due to the numerous deficiencies we found in the contractor’s statistical
                                     sampling of the LDP, MAL, and MILC Programs, we conclude that FSA’s
                                     FY 2005 PAR did not provide an accurate estimate of improper payments.
                                     Although recent improvements have been made to the statistical sampling
                                     process, including ORAS performing the sampling and considering producer
                                     eligibility criteria in the reviews, we recommend that additional management
                                     controls be implemented.

Recommendation 1 Develop and implement controls to help assure that statistical sampling
                 processes comply with all OMB and OCFO requirements. Sufficient
                 monitoring is required to ensure that ORAS personnel and its statistician
                 sample the entire universe, review all payments selected, account for payment
                 variables, and maintain documentation to support the results reported in the
                 PAR.

Agency Response                      FSA officials generally agreed with the recommendation. The officials stated
                                     that FSA developed and tailored a statistical sampling process for each
                                     program detailed in its Measurement Plans submitted to USDA’s Office of
                                     the Chief Financial Officer. FSA’s ORAS is performing the sampling process
                                     and employed a professional statistician to design the sampling approach,
                                     define the sample size, and identify the sample items. Testing is currently
                                     being performed by the ORAS County Office Review Program staff in FSA
                                     field offices and the results will be summarized and submitted to the
                                     statistician, who will determine the improper payment error rate.



9
  ORAS performs internal reviews of field office operations and staff, and therefore has a comprehensive knowledge of FSA’s programs. It is a branch of
FSA’s Office of Business and Program Integration. ORAS ensures compliance with policies and procedures by identifying issues raised by internal and
external reviews, and audits.
10
   The MILC Program was not included in the FY 2006 sample because it was scheduled to expire. The program was terminated at the end of FY 2004,
then subsequently re-authorized. However, outlays were estimated at only $9 million for FY 2005.
USDA/OIG-AUDIT/03601-0014-Ch                                                                                                                Page 8
OIG Position                        The FSA response includes information regarding the sampling process,
                                    items being tested to identify improper payments, etc., for each of the high-
                                    risk programs by ORAS to ensure OMB sampling requirements are met. The
                                    information was provided to OCFO on February 14, 2007. We can reach
                                    management decision when FSA officials advise us of the procedures
                                    followed by FMD to oversee and monitor ORAS to ensure the process
                                    utilized complies with OMB and OCFO requirements. This was evidenced,
                                    only in part, in attachment 11 of the FSA response that documented the
                                    December 6, 2007, meeting between FMD, ORAS, and OCFO to establish a
                                    definition of improper payments for FSA high-risk programs.




Finding 2                           Improper Payment Reviews Limited

                                    Although the contractor’s staff originally developed sufficient definitions of
                                    improper payments for each of FSA’s three high-risk programs, the criteria
                                    used to determine if sampled payments were improper was drastically
                                    reduced. Instead of addressing both producer and crop eligibility
                                    requirements, which were elements of the initial criteria, the contractor’s staff
                                    only reviewed two factors: commodity quantities and payment rates. The
                                    initial criteria was eliminated from the contractor’s definitions of improper
                                    payments because of time constraints; FSA personnel authorized this
                                    limitation in scope to meet the OCFO submission deadline for the FY
                                    2005 PAR. As a result, FSA’s 2004 estimates did not represent the actual
                                    extent of improper payments in its high-risk programs reported in the FY
                                    2005 PAR.

                                    The IPIA defines improper payments as those that should not have been made
                                    or that were made in an incorrect amount under statutory, contractual,
                                    administrative, or other legally-applicable requirements. The definition
                                    includes any payments made to ineligible recipients or for ineligible services.
                                    Since administration procedures vary significantly in each program, tests for
                                    improper payments must be tailored to address specific conditions and
                                    criteria. Furthermore, OCFO guidance informs agencies to explain how the
                                    statistical sample will test for improper payments. This explanation should
                                    include specific definitions of improper payments for evaluators to use in
                                    their determinations. 11

                                    To determine if FSA personnel had reported improper payment estimates
                                    correctly, we analyzed the contractor’s work to assess the adequacy of the
                                    improper payment definitions. We found two sets of definitions: those
                                    developed by the contractor’s staff prior to the sampling, and those that were
                                    used during the sampling process to meet OCFO’s reporting deadline.

11
     OCFO, “USDA FY 2005 High Risk Plan Guidance,” Version 1.0, November 10, 2004.
USDA/OIG-AUDIT/03601-0014-Ch                                                                                Page 9
                   Although the contractor’s staff originally identified up to nine different
                   factors to be reviewed in their tests for improper payments, only two
                   requirements were actually considered: the determination of the payment rate
                   and evidence of commodity quantities. We interviewed FSA officials from
                   FMD and PSD to determine if they had provided assistance to the
                   contractor’s staff in their efforts to establish quantitative and measurable
                   criteria for improper payments in each program. The officials informed us
                   that they had assisted the contractor’s staff.

                       Eligibility Criteria Reduced

                       When FSA officials prepared the SOW, they required the contractor’s
                       personnel, who were unfamiliar with FSA’s numerous eligibility
                       requirements for each program, to specifically define improper
                       payments. Although the contractor developed adequate definitions to test
                       for improper payments in each of FSA’s three high-risk programs, these
                       were not the definitions the contractor’s staff actually used in their
                       evaluations.

                       The initial definitions were reduced to only address commodity
                       quantities and payment rates. Commodity quantities were assessed by
                       reviewing forms to verify production evidence. When reviewing
                       documents in the MAL Program, the contractor’s staff evaluated loan
                       payment rates to ensure that they were applied to the correct commodity,
                       county, and crop year. If either of the two basic requirements were
                       missing or unsupported, the payments would be considered improper.
                       The COTR told us he granted the contractor permission to eliminate the
                       eligibility requirements from its sampling criteria due to time constraints.
                       However, this action severely limited the criteria used by the contractor’s
                       staff, and led to an inaccurate assessment of improper payments.

                       The original improper payment definitions were sufficient because they
                       addressed both producer and crop eligibility requirements. For example,
                       in the MAL Program, the contractor’s initial definition addressed nine
                       requirements that had to be reviewed to test for improper payments. The
                       LDP Program definition addressed elements such as payments to
                       ineligible persons, payments in the wrong amount, and payments for
                       ineligible services.

                       If these basic definitions had been used, the contractor’s staff could have
                       sufficiently reviewed the selected transactions to determine if they met
                       the predetermined requirements. However, the contractor’s staff
                       documented in the MAL Program report that “after review of program
                       documents and further discussion with FSA key personnel, the test for
                       improper payments was reduced to only two essential requirements.”
                       Similar decisions were made involving the LDP and MILC Programs.
USDA/OIG-AUDIT/03601-0014-Ch                                                             Page 10
                                            A consequence of the limitations was that various eligibility
                                            requirements were not considered while making improper payment
                                            determinations. For example, in the MAL Program, the contractor’s staff
                                            originally established that acreage reports had to be reviewed to
                                            determine program eligibility. However, after the definition was limited,
                                            compliance with this significant requirement was not considered.
                                            According to FSA handbooks, personnel must collect acreage data to
                                            determine if producers are eligible for loans and subsidies. 12 Since the
                                            contractors neglected to ensure that all producers met this criterion, a
                                            number of ineligible payments could have been overlooked.

                                            This limited scope led to an incomplete review of many key conditions
                                            which constitute improper payments. Also, this limitation in the scope of
                                            the sample was not disclosed in the PAR to inform the reader and
                                            provide consistency with other reported USDA improper payments.
                                            Beyond this, the limited scope compromised the development of an
                                            effective corrective action plan (CAP) to reduce improper payments.

                                            Since FSA personnel authorized the contractor’s staff to reduce the
                                            criteria in their evaluation of improper payments, FSA personnel could
                                            not identify any causes beyond their limited review of payment rates and
                                            production evidence. OCFO guidance calls for USDA agencies to take
                                            substantial steps to reduce future improper payments, which should
                                            include corrective actions that address specific causes identified in the
                                            latest statistical sample. 13 However, the actions reported in the CAP
                                            were not adequate to ensure significant reductions in future improper
                                            payments because the specific causes of improper payments had not been
                                            identified.

                                            Sampling Process Revisions

                                            During our audit, FMD personnel revised their sampling process for FY
                                            2006. When FMD requested that ORAS perform the FY 2006 sampling,
                                            ORAS agreed to perform such a function. At that point, FSA officials
                                            from FMD, ORAS, and PSD established the requirements that would be
                                            used in the FY 2006 PAR.

                                            The revised sampling process addressed eligibility requirements that
                                            were not considered in the previous sampling effort, reported in the FY
                                            2005 PAR. We commend FSA personnel of FMD, ORAS, and PSD for
                                            their attempts to agree upon revised improper payment criteria for each
                                            of FSA’s high-risk programs. However, as a result of our interviews with
                                            the PSD director and staff, they agreed that, considering the many
                                            eligibility requirements for FSA’s high-risk programs, the requirements
12
     FSA Handbook 8-LP (Rev. 1) Amendment 8, pg. 1.
13
     USDA FY 2005 Corrective Action Plan Guidance, Version 1.1, February 9, 2005.
USDA/OIG-AUDIT/03601-0014-Ch                                                                               Page 11
                                            that impact improper payments need to be better defined. The officials
                                            admitted that they should focus more on developing additional precise
                                            conditions that might cause improper payments.

                                            In preparation for the FY 2006 PAR, FSA officials designated four
                                            additional high-risk programs. 14 Although these programs and the timing
                                            of the sampling were beyond the scope of our review, specific improper
                                            payment criteria should be defined for each.

                                     We conclude that all pertinent aspects of each program must be reviewed to
                                     provide accurate improper payment estimates in the PAR and to identify their
                                     causes. Precise estimates are vital for determining the actual extent of
                                     improper payments. Determinations of their causes are vital for developing
                                     effective corrective actions. Furthermore, accurate estimates enable the
                                     President and Congress to monitor agencies’ attempts to reduce improper
                                     payments. This objective continues to be a major priority for Congress, and a
                                     primary focus of the President’s Management Agenda. Improper payment
                                     definitions which neglect to factor in all pertinent eligibility criteria make it
                                     difficult to fulfill the objectives of the IPIA.

Recommendation 2 Develop and implement definitions of the specific criteria and conditions that
                 could result in improper payments for each high-risk program. The
                 definitions should be adhered to during the annual improper payment
                 sampling process.

Agency Response                      FSA officials agreed with the recommendation. Their response included test
                                     items, specific to each high risk program, that are currently being reviewed in
                                     FSA field offices on the sampled payments to identify whether they were
                                     improper. This information was provided to OCFO on February 14, 2007.
                                     FSA officials also developed a definition of improper payments, agreed on
                                     December 6, 2005, to be provided to OCFO for concurrence.

OIG Position                         For final action, FSA should provide OCFO with confirmation that the
                                     definition has received concurrence.




14
   The four additional high-risk programs are the (1) Direct and Counter-cyclical Payment Program; (2) Conservation Reserve Program; (3) Disaster
Programs; and (4) Noninsured Assistance Programs.
USDA/OIG-AUDIT/03601-0014-Ch                                                                                                             Page 12
Scope and Methodology
                   We conducted our audit of FSA’s three high-risk programs: the MAL
                   Program, the LDP Program, and the MILC Program. We performed audit
                   work at the FSA national offices in Washington, DC; and Alexandria,
                   Virginia. We conducted our audit with the assistance of the Office of
                   Inspector General’s (OIG) statistician.

                   Because the sampling for the FY 2005 PAR had to be completed before the
                   end of the fiscal year, FSA sampled FY 2004 outlays. We judgmentally
                   selected 36 LDP and 15 MAL Program payments for review. We randomly
                   selected and reviewed 64 of the 434 FY 2004 MILC Program payments
                   sampled by FSA’s contractor. For the three high-risk programs, FSA
                   officials reported $50.2 million in improper payments on FY 2004 outlays
                   totaling $7.1 billion in the FY 2005 PAR.

                   We conducted our fieldwork from March through October 2006. The audit
                   was performed in accordance with Government Auditing Standards.

                   To accomplish our audit objectives, we performed the following procedures:

                   •   Reviewed applicable laws, regulations, and guidance concerning the IPIA
                       and the MAL, LDP, and MILC Programs.

                   •   Interviewed appropriate FMD, ORAS, and PSD officials.

                   •   Reviewed FSA’s policies, procedures, and management controls for the
                       MAL, LDP, and MILC Programs regarding their process for estimating
                       FY 2004 improper payments to be reported in the FY 2005 PAR.

                   •   Reviewed FSA’s FY 2005 statistical sampling plan and documentation
                       used to support the statistical sampling, which included the improper
                       payment error rate, and estimated value of improper payments.

                   •   Reviewed each program’s corrective action plans for the improper
                       payments.




USDA/OIG-AUDIT/03601-0014-Ch                                                         Page 13
